       ASSESSMENT REPORT
      REPORT NUMBER 12-06




     FEDERAL DIGITAL SYSTEM
RELEASE 2 TRAINING MATERIAL, USER
  DOCUMENTATION, AND TRAINING
  IMPLEMENTATION TASK REPORT

         February 24, 2012
Date
February 24, 2012
To
Chief Technology Officer
From
Inspector General
Subject
Federal Digital System (FDsys) Training Material and User Documentation
Analysis, Independent Verification & Validation (IV&V) Report
Report Number 12-06


Attached is the Independent IV&V Report on the U.S. Government Printing
Office’s (GPO) development and implementation of FDsys. The Office of
Inspector General (OIG) contracted with American Systems to conduct an
IV&V in accordance with methodology established by the Institute of
Electrical and Electronic Engineers (IEEE) Standard 1012‐2004, the IEEE
Standard for Software Verification and Validation.

American Systems provides quarterly observations and recommendations
on technical, schedule, and cost risks. Additionally, American Systems has
provided additional analyses on certain aspects of FDsys that have resulted
in a report.

American Systems is responsible for the attached IV&V report and the
conclusions expressed in the report. However, in connection with the
contract, we reviewed American Systems' report and related documentation
and inquired of its representatives. Our review disclosed no instances
where American Systems did not comply, in all material respects, with
contract requirements.
Chief Technology Officer
Report 12-06
February 24, 2012
Page 2 of 2


If you have any questions or comments about this report, please do not
hesitate to contact me at (202) 512-0039.




Michael A. Raponi
Inspector General

Attachment

cc:
Acting Public Printer
Assistant Public Printer, Superintendent of Documents
Assistant Public Printer, Operations
General Counsel
Chief Financial Officer
Chief Information Officer
Acquisitions Director
                           IV&V TASK REPORT
TO:           Michael A. Raponi
FROM:         David Harold
IV&V OF:      Training Material and User Documentation
              (Doc Number 02-038)
SUBJECT:      Training Material and User Documentation Analysis
              Tasks 5.5.1.2 (Training) and 5.5.1.3 (User Documentation)
DATE:         January 24, 2012
CC:           Dan Rose, Margaret Brown

1. Description of Task

Independent Verification and Validation (IV&V) performed an assessment of the FDsys training
material and user documentation for Release 2 that was available as of January 20, 2012. The
findings in this report are based on review of the following:

   •   Documentation and Training Plan for the US GPO FDsys Release 1, version 1.0, May 4,
       2010;
   •   Training Presentations available on SharePoint;
   •   Training Manuals (per user) on the Shared Drive;
   •   IV&V participation in an Introduction to FDsys training session; and
   •   IV&V participation in an Advanced FDsys training session.

The goal of this Task Report was to review and evaluate the following, and to provide
recommendations for improvements:

   •   Quality of the FDsys Documentation and Training Plan (D&TP);
   •   Implementation of the D&TP;
   •   Quality of the user manuals; and
   •   Quality of the training sessions and material.


2. Summary of Task Results

FDsys consists of a Documentum subsystem and a FAST subsystem. The Documentum
subsystem is used for submission, processing, and archiving of documents, and the FAST
subsystem for public search. In some instances, this report comments specifically on one or the
other subsystem, but primarily the comments are directed at both subsystems.

IV&V assessment of the FDsys training material and user documentation produced the following
summary observations (details for each topic area may be found in the Assessment of Quality
section of this Task Report).



                                                                                   Page 1 of 13
Summary: Quality of the D&TP

The D&TP has been updated since the original (release of the document) was reviewed and
evaluated by IV&V in March 2009; however, the document has not been updated for Release 2
in accordance with the provisions stated therein. Section 1 of the D&TP states, “This document
is a ‘living’ document in that it will be updated throughout various releases to ensure that
documentation and training is available and delivered to additional users as functionality is
added in each release.”

Summary: Implementation of the D&TP

Training is not being delivered in accordance with the schedules contained in the D&TP. This is
likely due to the fact that system development is often delayed by the FDsys Program responding
to requests from other government agencies for development of additional Collections or other
applications; therefore, sufficient time has been unavailable to permit the review and update of
the training material in a timely manner. The training schedule in the D&TP is out of date and
should be updated. There are several areas of the D&TP which are not being implemented.

Summary: Quality of User Documentation

User documentation reviewed by IV&V consisted of FDsys user manuals that were developed
for users based on specific user categories as delineated in the D&TP. Note that IV&V could not
locate all FDsys user manuals referenced therein. They were not available either on the Shared
Drive or in SharePoint, both maintained by the FDsys PMO. It is unclear whether all user
manuals have been developed.

The user manuals reviewed by IV&V describe the activities and functions that can be
implemented using FDsys for each specific user category. Screen shots are provided and the
location of buttons and links on those user panes are described. Notes are provided containing
useful tips and describing how to use the various Help methods that are currently available. The
large numbers of annotated screen shots that are provided include step-by-step instructions
describing to users how to interact with the system in the performance of their specific job-
related activities and functions.

Summary: Quality of Training Material

IV&V reviewed FDsys training material as cited in the DT&P. This training material consisted
of PowerPoint presentations for each of the identified User Categories and materials distributed
for attendees of the FDsys Introduction and FDsys Advanced classes that are given to GPO
internal employees. IV&V did not attend specific User Category training, e.g., Internal Service
Provider, Congressional Publishing Specialist; rather, the training was geared toward using
FDsys to find and retrieve materials from Collections within FDsys through the use of basic
searching, advanced searching, browsing by citation, and performing advanced navigation to
track legislation and regulations, e.g., congressional bills.

3. Summary of Anomalies and Resolutions
                                                                                    Page 2 of 13
No anomaly reports were written as a result of this task.

4. Assessment of Quality

Specific findings and comments for each topic area evaluated by IV&V are detailed below.

Quality of the D&TP

The D&TP has been updated since the original was reviewed and evaluated by IV&V in March
2009. The current document date is May 4, 2010 (for Version 1.0). A number of previous
IV&V recommendations have been incorporated in this version; however, the document has not
been updated for Release 2. The document exhibits the following weaknesses:

    •    IV&V was unable to find any evidence that any of the User Manuals cited in the D&TP
         have been updated for Release 2. User Manuals have just recently become available on
         SharePoint;
    •    The training schedule provided in Paragraph 1.8.2 is outdated and should be updated for
         Release 2;
    •    IV&V found no evidence that Webinars were being either scheduled or offered;
    •    Only one (1) Training Video is to be provided, according to a GPO CIO response to an
         open OIG recommendation; however, Table 1.6.2 in the DT&P indicates that a number
         of these video tutorials would be produced; and
    •    Lab/classroom training per each specific User Category is not provided as described in
         the DT&P; rather, training is being provided as part and parcel of the User Acceptance
         Testing (UAT), which is not described in the document.


Implementation of the D&TP

It is part of IV&V tasking to review the adherence to the D&TP. Table 1.5 in the D&TP
specifies and describes specific deliverables. The table below lists and describes those
deliverables as they appear in the D&TP, and provides the status of each deliverable as IV&V
was able to ascertain in December 2011.

 Deliverable Deliverable Description                       Deliverable Status
 (as cited in the   (as cited in the D&TP)                  (as ascertained by IV&V as of 01/16/2011)
 D&TP)

 User               A User Manual will be developed        While a number of User Manuals were verified as
                                                           completed by IV&V in February 2009 there appears to
 Manuals            for each User Category identified in   be no evidence that many of these User Manuals were
                    Submission User Roles and Access       reviewed and compared to the current functionality that
                    Rights Technical Memo, Version 2.      was in Release 1 to determine if updates would be
                                                           required for Release 2. IV&V found no evidence that
                    At the present time, we anticipate 8   these User Manuals have been updated for Release 2.
                    user manuals.                          Only recently have specific user manuals been made
                                                           available on SharePoint. Also, a new User Manual for
                                                           Reporting has been developed and is available on
                                                                                                    Page 3 of 13
Deliverable Deliverable Description                        Deliverable Status
(as cited in the   (as cited in the D&TP)                      (as ascertained by IV&V as of 01/16/2011)
D&TP)
                                                           SharePoint; however, the D&TP does not reference this
                                                           newer manual.
                                                           •     Internal Service Provider - Completed
                                                           •     Congressional Publishing Specialist - Completed
                                                           •     Web User Interface Specialist – Completed
                                                           •     Content Metadata Specialist – Completed
                                                           •     Featured Publication Specialist - Completed
                                                           •     Preservation Specialist - Completed
                                                           •     End User – IV&V could not locate this User
                                                                    Manual by name; however, an FDsys Search
                                                                    User Manual that provides information for
                                                                    performing public searches is available on the
                                                                    Shared Drive and from the Help provided in
                                                                    FDsys.
                                                           •     Workflow Administrator – Deleted

RoboHelp           Help Files will be developed to aid     Context-sensitive help is available at the screen level in
                   the user in the execution of tasks.     the form of the mouse pointer changing shape into a
                   Help files will be context-sensitive    question mark.
                   and displayed in separate windows
                   overlaying the graphical user
                   interface (GUI) screens.

Field Help         For each field and link in each form,   There is some field-level pop-up help for the deployed
                   a description of that field will be     search application.
                   provided both in the user manual as
                   well as in a pop-up window in the
                   software if evoked by the user.

Training           Training Presentations – as Power       Only the Preservation Specialist Training Presentation is
                                                           available on SharePoint. The other presentations are
Presentations      Point presentations – will be           available on the Shared Drive which is maintained by the
                   developed for each User Category,       FDsys Program/Configuration Management.
                   based on the User Manuals.              •     Internal Service Provider - Completed
                                                           •     Congressional Publishing Specialist - Completed
                                                           •     Web User Interface Specialist – Completed
                                                           •     Content Metadata Specialist - Completed
                                                           •     Featured Publication Specialist - Completed
                                                           •     Preservation Specialist - Completed
                                                           •     End User - Completed
                                                           •     Workflow Administrator – Deleted


                   Training Videos will be developed       Not found; however, a number of tutorials are available
                   to help students learn how to use       on the FDsys site. The FDsys Program will not be
Online
                   FDsys by watching the functions         producing online training videos. Rather, the LSCM
Training
                                                           Group, during training sessions attended by IV&V,
                                                                                                           Page 4 of 13
Deliverable Deliverable Description                        Deliverable Status
(as cited in the   (as cited in the D&TP)                  (as ascertained by IV&V as of 01/16/2011)
D&TP)
Videos             being performed in a simulation.        indicated they would be producing videos and posting
                                                           them to FDsys.

FAQs               Frequently Asked Questions (FAQs)       FAQs for the search application have been deployed via
                   will be developed for end users to      AskGPO. There are both Questions and Answers being
                   describe how to perform common          provided. The FAQs appear to have been updated since
                   and later uncommon tasks. Where         the last IV&V evaluation. There is more detail available
                   possible, pointers to online training   and currently there are two hundred thirty-three (233)
                   videos will be provided.                answers.

Call Center        Call Center Scripts will be             Call Center Scripts were delivered to LSCM. There is a
Scripts            developed to answer the questions       PowerPoint presentation for Call Center training dated
                   of end users. These scripts will also   12/18/08. It provides very high-level information on
                   point to online training videos where   FDsys. It contains no formal call center scripting, but
                   available.                              does contain the same set of FAQs that are available on
                                                           AskGPO. Call Center agents are instructed as follows
                                                           on slide 12 of the PowerPoint presentation:
                                                            “If you can’t answer the question, you can route it to
                                                           Library Services and Content Management using
                                                           RightNow CRM tool. If Library Services is unable to
                                                           answer the question, they can route it to the Program
                                                           Management Office.”
                                                           No online training videos have been produced.




                                                                                                       Page 5 of 13
 Deliverable Deliverable Description                     Deliverable Status
 (as cited in the   (as cited in the D&TP)                   (as ascertained by IV&V as of 01/16/2011)
 D&TP)

 Training           Training Classes will be developed   1. IV&V found no evidence that training classes were
                                                         conducted for any user category in Release 2 except the
 Classes            for all classes of internal and      following:
                    external users.
                                                         • End User (i.e., Public User)

                                                               2. Training classes were conducted in Release 1 for
                                                               the following user categories:
                                                         •     Internal Service Provider
                                                         •     Congressional Publishing Specialist
                                                         •     Preservation Specialist

                                                         3. IV&V found no evidence that training was provided
                                                         for the following user categories:
                                                         •     Web User Interface Specialist
                                                         •     Content Metadata Specialist
                                                         •     Featured Publication Specialist
                                                         •     End User

                                                         4. Training for the following user category was deleted
                                                         from the D&TP:
                                                         •     Workflow Administrator

                                                         Training classes have been developed by the GPO LSCM
                                                         Group and are given in a computer lab as part of the GPO
                                                         University. The training attended by IV&V was geared
                                                         toward external (i.e., public) users.
                                                         LSCM Group also indicated they would be using these
                                                         videos for virtual training as well.

                                                         The FDsys Program (i.e., IT&S) has been providing
                                                         training in collaboration and coordination with their
                                                         FDsys User Acceptance Testing. Comments received by
                                                         the specific users (based on job function) are reviewed
                                                         and investigated to determine if an actual failure
                                                         occurred. If it has the failure/problem it is recorded
                                                         using a Program Tracking Report (PTR). All comments
                                                         are responded to by the FDsys Program and provided to
                                                         the users.


The lack of completion of some deliverables can be ascribed to the fact that the FDsys PMO has
been working to a very aggressive schedule which, to date, has not permitted the update to the
Training documentation as it is referred to in both Section 1 and Paragraph 1.2 of the FDsys
D&TP: “This document is a ‘living document’ in that it will be updated throughout various
releases to ensure that documentation is available and delivered to additional users as
functionality is added in each release.” In addition, the FDsys PMO has responded to a number
of outside agency requests, which has diverted resources away from this effort. The current
                                                                                                         Page 6 of 13
schedules that are available in SharePoint, i.e., R2 Master Schedule and the Master Schedule for
Release 2 Group D, do not include any training activities. Lack of other deliverables may be due
to the fact that the PMO has re-evaluated their usefulness and has not yet updated the D&TP.

Other Observations on D&TP Implementation:

   •   The D&TP calls for two individuals, a trainer and an SME, to be present for each training
       session, subject to the availability of the SME. Training provided by the LSCM Trainers
       did not include an FDsys SME.
   •   Webinars are mentioned in the D&TP. IV&V could not find any evidence of any
       webinars that have been created to date.
   •   Per the D&TP (Paragraph 1.2), there is no training or user manual being prepared for the
       System Administrator or Security Manager. Users in these roles, however, will certainly
       need training and manuals.
   •   The FDsys Master Test Plan (MTP) references the use of both User Acceptance Test and
       Beta Testing. This is significant because users have the opportunity to perform their
       specific functions, based on software updates that have been implemented in the FDsys
       Production Instance, and to provide feedback. The FDsys MTP does refer to this as
       actual training. The UAT Tester Feedback Form appears to be the mechanism used to
       gather feedback from UAT participants. Note that this type of training and the use of the
       feedback mechanism(s) are not documented in the actual D&TP.

Quality of User Documentation:

Per the D&TP, each user manual is supposed to contain the following features:

       •   Narrative of tasks to be performed
       •   Step-by-step instructions
       •   Screen shots
       •   Normal outcomes
       •   Errors and warnings
       •   Demonstrations of real world scenarios
       •   List of online video tutorials

Below are IV&V comments on the User Documentation.

       •   The User Manuals have not been updated for Release 2.
       •   In response to open OIG Recommendation 09-12-03 (from the IV&V 7th Quarterly
           Risk Report), it was indicated that no online video tutorials other than Public Users
           would be created. Table 1.5 in the D&TP needs to be updated (in the Notes column)
           to indicate this. Currently the entry in that table states “…that these online training
           videos would be developed to help students learn how to use FDsys by watching the
           functions being performed in a simulation.”


                                                                                     Page 7 of 13
Quality of the training sessions and material (classes and PowerPoint presentations)

In a meeting with IV&V on Thursday, January 12, 2012, the FDsys Program Manager indicated
that training is no longer being performed by FDsys personnel. This new information explains
why the training schedules in the D&TP are significantly outdated and why the FDsys user
manuals have not been reviewed and updated for Release 2. Training on how to use FDsys is
being developed and provided by members of the Library Services and Content Management
(LSCM) group at the GPO University. LSCM is developing a separate training plan and the
training sessions include an FDsys Introduction class and FDsys Advanced class. During the
introductory part of the training sessions, the LSCM group indicated that they would be
producing five- to six- (5-6) minute training videos in the future and posting them to FDsys.
Lastly, they also indicated that LSCM would use these to provide virtual training for users
unable to attend training sessions at GPO headquarters.

It should be noted that other training is being performed by members of the FDsys Test Team,
actually by members of the IT&S Group. User Acceptance Testing (UAT) is being used as both
a testing and training vehicle. During these UAT sessions, specific users, e.g., Internal Service
Provider and Congressional Publishing Specialist, are invited to perform tasks and actions
specific to their user roles. Potential problems found during the UAT are documented and then
investigated to determine if an actual problem exists, or whether or not the function could be
executed due to machine or human (operator) error. All issues deemed as problems are then
documented on a Program Tracking Report (PTR) and assigned to an engineer via email
notifications from the ClearQuest tool. All issues and their resolutions, including PTR number,
are documented in the User Acceptance Testing Report.

IV&V observed both the Introduction to FDsys and the Advanced FDsys classes that were
conducted by the GPO University on January 11, 2012. The classes were well-prepared and
presented, and the trainers were knowledgeable in the subject matter being taught. There were no
representatives from FDsys present during the training sessions. The training was conducted in
one of the computer labs in the GPO University. Each trainee had a machine with which to
perform tasks. Training materials that were provided were more informational rather than
containing step-by-step instructions on how to perform a particular search, browse, or navigation
function. The information that was distributed was very helpful and described the various
congressional artifacts, how they are prepared, and their purpose. No problems were
encountered with the desktop machines during the training sessions. Known problems were
announced by the trainers, and any issues that arose were recorded, so they could be provided to
the FDsys team.

The LSCM trainers demonstrated flawlessly how to perform these functions, which again were
directed more toward the public for performing search, browse, and navigational functions across
the nearly fifty (50) collections contained within FDsys. The trainers also demonstrated an
extensive help system within FDsys which was easy to use and very intuitive.

Each session was conducted in a similar manner, as described below:


                                                                                     Page 8 of 13
   •   The training consisted of logging into a GPO computer and then accessing the FDsys
       website. Trainers from the GPO LSCM Group distributed handouts that contained
       descriptive information on the Collections and the high level need to access these
       Collections to obtain various congressional artifacts. The training material and
       presentations could be more specific – aimed at providing step-by-step instructions
       describing how to search, browse, or navigate FDsys. It is not that these tasks were
       difficult to perform; rather, inclusion of step-by-step processes would enable the handout
       to serve as a future reference guide for users attempting to perform these functions.
   •   The training encompassed the various mechanisms that can be used to locate and access
       congressional artifacts such as regulations, bills, and laws. This information was also
       displayed in the form of a PowerPoint slide presentation given by Ms. Seifert and Mr.
       Ames from LSCM. There were five to eight (5-8) trainees in each session and the
       sessions lasted approximately two to three (2-3) hours.
   •   The first fifteen (15) minutes of the training was spent in a high level
       explanation/discussion of FDsys, with few specifics related to training or to the trainees’
       use of the system to perform their jobs.
   •   There were no formal exercises for the users to work through using the system. The
       trainees followed along with the trainer on their PCs, but there were no independent
       exercises for the trainees to attempt. IV&V observed that most of the trainees were easily
       able to follow along with the trainer. Questions were asked and answered immediately
       with the trainers also pointing out known problems with FDsys.
   •   The trainees at the first two (2) sessions attended by IV&V were very positive and
       enthusiastic about both the training and learning how to use the system.
   •   All of the personal computers worked flawlessly for both classes.
   •   At no time during the session were trainees asked to complete exercises on their own.
       The trainees simply followed voice commands and compared their screen with that of the
       trainers.
   •   Only minor problems with FDsys were observed during the training and the trainers
       indicated that in two of the three instances these were known glitches. In the other
       instance, the trainers documented the issues and indicated they would forward the issue to
       the FDsys team.


       3. Identification and Assessment of Technical and Management Risks

The effects of these conditions did not manifest themselves as potential risks.


       4. Recommendations

There is no formal IV&V recommendation at this time. However, if the FDsys Training effort is
or has been transitioned to the LSCM Group, then IV&V recommends that a pointer or link be
provided to all LSCM Training materials to include the Training Plan, User Manuals, and User
Presentations. If the training effort remains as tasking for the FDsys PMO, then IV&V
recommends the following:
                                                                                     Page 9 of 13
   •   Recommendations to improve the User Manuals:
          o User manuals should be revised to contain all of the features specified in Section
            4 of the D&TP.
          o Update user manuals if necessary to reflect changes to the system resulting from
            correction of system problems and updates to system functionality in Release 2.

   •   Recommendations to improve training sessions and material:
          o Add user exercises specific to each user role to the training sessions.
          o Update training material if necessary to reflect changes to the system resulting
            from correction of system problems.
          o Have the trainer check with the trainees periodically to make sure none of them
            are stuck or lost. Some trainees are not willing to interrupt the class to be assisted
            in catching up.

   •   Recommendations to improve the D&TP
          o The PMO should update the D&TP for Release 2, capturing software and process
            changes related to each specific user category.

Management’s Response. Concur. Management stated that the public search training
materials developed by LSCM will be made available from the GPO Intranet, and also gpo.gov,
so that all users of FDsys can have access to these materials. The expected completion date for
this activity is April 2012.

Evaluation of Management’s Response. Management’s planned action is responsive to the
recommendation. The recommendation is resolved but not yet implemented and will remain
open for reporting purposes pending completion, implementation, and confirmation of the
planned action.




                                                                                    Page 10 of 13
Appendix A. Management’s Response




                                    Page 11 of 13
                  Appendix B. Status of Recommendations
Recommendation       Resolved   Unresolved   Open/ECD*    Closed
      No.
       1                 X                     04/2012
*Estimated Completion Date




                                                          Page 12 of 13
                        Appendix C. Report Distribution

Assistant Public Printer, Operations
Assistant Public Printer, Superintendent of Documents
Chief of Staff
Chief Information Officer
Chief Technology Officer
General Counsel
Acquisitions Director




                                                          Page 13 of 13
